No. 20-1751
IN

rnn

Su0reme @ourt of tbe @nite! btutes
SUSAN FISCHER, ET AL.,
Petitioners,

v

PHIL MURPHY, GOVERNOR OF NEW JERSEY, ET AL.,
Respondents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Third Circuit

CERTIFICATE OF COMPLIANCE
Undersigned counsel for the New Jersey Education Association and Township
of Ocean Education Association, a member of the Bar of this Court, certifies pursuant
to Supreme Court Rule 33.1(h) that the BRIEF IN OPPOSITION OF
RESPONDENTS NEW JERSEY EDUCATION ASSOCIATION AND TOWNSHIP
OF OCEAN EDUCATION ASSOCIATION complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook L2 point for
the text and 10 point for the footnotes, and the brief contains 5,399 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d).

Rauve RavINnnaN
(Counsel of Record)
BnroHon'r' & Karsnn, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
rravindran@b re dhoff. com

Counsel for New Jersey Education
Association and Township of Ocean
Education Associotion
Executed on September 27,202L

